Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





     A SURVEY OF CERTIFIED

        NURSE- MIDWIVES





             YlCE.


                     Richard P. Kusserow
                     INSPECTOR GENERA
      11


       'ol   daa          MACH 199
                        OFFICE OF INSPECfOR GENERA

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95- 452 , as
amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Office of Audit Servces , the
Office of Investigations ,   and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program , and management problems , and recommends courses to
correct them.

                              OFFICE OF AUDIT SERVICE
The OIG' s Offce of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective   responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse , and
mismanagement and to promote economy and efficiency throughout the Department.

                              OFFICE OF INTIGATIONS
The OIG' s Office of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AN INSPECfONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI's Atlanta Regional Offce staff prepared this report under the direction of Jesse J.
Flowers , Regional Inspector General , and Christopher Koehler, Deputy Regional Inspector
General. Principal OEI staff included:

Paula Bowker , Co- project Leader               Jean DuFresne , Co- project Leader , Chicago
Ron Kali                                        Angela Cole , RN
Maureen Wilce                                   Ta Zitans , Headquarters
Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





     A SURVEY OF CERTIFIED

        NURSE- MIDWIVES





             YlCE.

       tJ
                     Richard P. Kusserow
                     INSPECTOR GENERA
      11



            ~daa OEI-04-90-02150
              EXECUTIVE SUMMAR 

PUROSE
To describe the practices of certified nurse-midwives and what they perceive as
barriers to their profession.



BACKGROUN
A certified nurse-midwife (CNM) is a registered nurse who is educated in the two
disciplines of nursing and midwifery, and who has been certified by the American
College of Nurse- Midwives (ACNM). CNMs may provide prenatal care , intrapartum
care , postpartum care , normal newborn care , and well-woman gyecology.

Access to prenatal care and the nation   s high infant mortality rate are growing national
issues. Between 1988    and 1992 ,  the Secretary, Department of Health and Human
Servces , expressed strong conern about infant mortality, and he recently stated that all
children deserve a " healthy start. " In 1989 the nationwide infant mortality rate was 9.
per 1000. In 1990 over one half milion pregnant women had little or no access to
prenatal care.

A decrease in physician obstetrical care providers throughout the nation exacerbates
the problem of access to prenatal care. Many obstetrician/gyecologists (OB/GYNs)
and family physicians no longer deliver babies largely due to fears of malpractice suits
and many will not take Medicaid patients.

Certified nurse-midwives (CNMs) can make prenatal care more accessible. They are
historically credited with improving geographic distribution of care and providing care
to underserved populations in inner cities and remote areas.

METIODOWGY
We mailed a survey questionnaire to a random sample of 542 CNMs residing in the
United States. In addition , we reviewed the practice of 26 CNMs at 5 settings
intervewed knowledgeable people ,    and reviewed literature on CNM practices and
barriers.

FININGS
CN AR WELL QUALIFIED AN PRACTCE IN A WIE VARTY
SETTGS
              Most CNMs are practicing their profession.

              Most CNMs are women who are well educated and have extensive
              experience in their profession.
             Few CNMs work in rural areas.


             CNMs provide servces in a variety of settings.


             Most CNMs work for an organization or institution.


             CNMs serve a wide range of patients.



CN   CIT 	   BARRS TO THIR PROFEION
             CNMs cite attitudes and perceptions of the medical community as the
             most important barrier to their profession.

             Other barriers frequently identified by CNMs included

                   Limitations on prescriptive privileges

                   Restrictive hospital admitting privileges ,   and

                   Attitudes and perceptions of the general public.

             CNMs who are closely affiliated with physicians and physician- governed
             organizations are less likely to cite barriers.
                                                                                     . . . . . . . .. .. .. .. .. .. ..                                                  . . . . . . . . . . . . . . . . ..
                                                                                                                                                                                       .. .. .. .. .. .. .. .. . . . . . ..
                                                                                                                           .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .
                                                                                                                      ..................................




                                                                                     TABLE OF CONTENTS

EXECU SUMY
INODUCTON
    Purpose. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

    Definitions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




    Background

    Methodology                                                                                                                                                                        .............3

FININGS
     CNMs ARE WELL QUALIFIED AN PRACTICE
     IN A WIDE VARIETY OF SETTINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

      CNMs CITE BARRIERS TO THEIR PROFESSION . . . . . . . . . . . . . . . . . 8

APPENDIX
     Appendix A: Survey Questionnaire
     and Summary of CNM Responses to
      Each Question. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                                  . . . . . . . . .. A-
     Appendix B:   CNMs Provide Servces
      At A Variety of Sites                                                                                                                                                                             . . . .. B-
     Appendix C: Sample Settings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. C-

       Appendix D: Barriers Identified As
       The Most Significant                                                                                                                                                                             . . . . . D-

       Appendix E: Frequency                                                                                  of Selection of

       Barriers Identified by CNMs 


       Appendix F: Literature Review On
       Certified Nurse- Midwives ' Profession . . . . . . . . . . . . . . . . . . . . . . . . . . .. F­

ENDNOTE
                          INTRODUCTION

PUROSE
To describe the practices of certified nurse-midwives and what they perceive as
barriers to their profession.



DEFIONS
Certed Nurse-Midwe: A certified nurse-midwife (CNM) is a registered nurse who
is educated in the two disciplines of nursing and midwifery. The Omnibus
Reconciliation Act of 1987 defines " certified nurse-midwife " to mean a registered
nurse who has successfully completed a program of study, including clinical experience
in nurse-midwifery, has been certified by the American College of Nurse- Midwives
(ACNM), and provides care for mothers and babies throughout the maternity cycle.

CN Servces: CNMs may provide servces to normal, healthy women and their
babies , including prenatal care; labor and delivery management; postpartum care;
normal newborn care; and well-woman gyecology.

Inant Mortty Rate:       The infant mortality rate is the measurement of the number of
deaths in the first year of life for every 1000 live births. The infant mortality rate is a
generally-accepted indicator of the state of health care in a nation.

BACKGROUN
Midwiery and Prenata Cae

A decrease in the number of physician obstetrical care providers throughout the
nation exacerbates a problem of access to prenatal care , which is " the single factor
most likely to prevent low birthweight babies and infant deaths. "l CNMs are
historically credited with improving geographic distribution of care and providing care
to underserved populations , care that would otherwse be unavailable in inner cities
and remote areas. 2 Three separate organizations , the National Academy of Science
Institute of Medicine , the Southern Governor s Association Task Force on Infant
Mortality, and the Children s Defense Fund , have highlighted the contributions of
CNMs to the prevention of low birthweight.

Nurse-midwives have existed in this country since the 1920s. In 1971 the American
College of Nurse- Midwives (ACNM) officially established the profession of certified
nurse-midwife (CNM) through a national certification examination which assesses the
competency of each nurse-midwife s. The Department of Health and Human Servces
(HHS) grants reimbursement eligibilty under Medicaid and Medicare only to CNMs
certified by ACNM. As of August of 1991 , over 4500 nurse-midwives had been
certified by ACNM.
The ACNM grants certification in nurse-midwifery to individuals who:

       are registered nurses ,   licensed in one of the United States or United States
      territories;

      have graduated from a nurse-midwifery educational program approved , or with
       approval pending, by ACNM; and

       have achieved a passing score on the ACNM examination.

In 1989 the American Hospital Association                                   of 2440
                                                conducted a survey and found that
responding hospitals , 11 percent employed CNMs and another 8 percent contracted
with CNMs for their servces.

In 1987 midwives attended only 2. 6 percent of approximately four milion women who
gave birth in U. S. hospitals. 8 In 1988 , midwives were the principal and only birth
attendant for at least 70 percent of the births in European countries. We hope the
information provided in this report will help the Department ascertain how CNMs
might alleviate problems.

Prenatal Cae and Inant      Mortty
Access to adequate prenatal care and the nation s high infant mortality rate are
growing national issues. In 1989 the nationwide infant mortality rate was 9. 8 per 1000.
In 1987 , the U. S. ranked 19th worldwide in infant mortality. 9 In 1990 over one half
milion pregnant women had little or no access to prenatal care.

Many obstetrician/gyecologists (OB/GYNs) no longer deliver babies largely due to
fears of malpractice suits ll and many will not take Medicaid patientsP Family
physicians are also discontinuing or decreasing the provision of obstetrical care.

Governent Program       to Decrease Inant Mortty

The Secretary and other officials of HHS are concerned about infant mortality and are
committed to developing programs and initiatives which address the problem. Various
programs and organizations have been developed throughout this century to improve
access to prenatal care and to lower the infant mortality rate. Some of the programs
and organizations are highlighted below.

       In 1935 ,
               Title V of the Social Security Act authorized grants for maternal and
       child health. In 1981 Title V was amended , creating Maternal and Child
       Health Block Grants to provide consolidated funding for programs to reduce
       infant mortality.

      The Medicaid program began funding prenatal and postnatal care for low
      income women and infants in the 1960s. In recent years the program has been
      amended to expand servces.

       In the 1970s the PublicHealth Servces Act authorized grants for establishing
      Community Health Centers and Migrant Health Centers. These centers
      include perinatal and prenatal care among their servces. Beginning in Fiscal
      Year 1988, Congress appropriated funds for the Comprehensive Perinatal Care
      Program to improve pregnancy outcomes and the health status of women and
      infants who are served by Community and Migrant Health Centers.

      In 1974 the U. S. Department of Agriculture funded the first Supplemental
      Food Program for Women , Infants , and Children (WI C). This program , now
      nationwide , provides nutritional education and supplemental food to women
      who are at nutritional risk and are low- income , pregnant or nursing and infants
      and young children who are at nutritional risk.

      The Rural Health Clinic Servces Act authorized grants in 1977 which allowed
      clinics to provide CNM servces as defined under the Medicare program.

      The Omnibus Reconciliation Act of 1987 (OBRA 87) granted reimbursement
      eligibility to CNMs under the Medicare and Medicaid programs     by expanding
      the definition of " mid- level practitioner.

      The Secretary, Department of Health and Human Servces , has initiated a
       Healthy Start" program. The program s purpose is to reduce infant mortality
      through additional support for comprehensive servce delivery. The HHS has
      made grants to fifteen communities for developing innovative approaches to
      achieve this objective.

METIODOWGY
To obtain information on CNM practices and barriers , we mailed a survey
questionnaire to a random sample of CNMs. We also intervewed selected CNMs at
their place of practice , and individuals in other organizations who are knowledgeable
about CNM practices. Finally, we conducted a literature review of CNM practices and
barriers.

We obtained from ACNM a universe of 2985 CNMs who were ACNM members.
From this universe , we randomly selected 542 CNMs residing in the United States.
We mailed all 542 CNMs a survey questionnaire designed to obtain information on
their practices and their perceptions of barriers to their profession. Four hundred and
six- two CNMs responded to the survey questionnaire. We then eliminated 124
CNMs who worked for the miltary, the Indian Health Servce (lHS), or who were not
presently practicing as a CNM. We used responses from the remaining 338 CNMs for
our analysis of CNMs ' practices and barriers to their profession. The 338 CNMs
represent slightly more than 62 percent of our sample of 542.

Our survey questionnaire contained three parts. The first part requested demographic
information , such as age , salary range , years of experience , and sex. The second part
contained a list of 14 possible barriers from which CNMs were instructed to select as
many as they perceived to be a barrier to their profession. The third part contained
the same 14 possible barriers , plus a category called " other " and one called "
barriers. " In the third part CNMs were instructed to choose the one most important
barrier to their profession. Appendix A contains the entire survey instrument and a
summary of sampled CNMs ' responses to each question.

To obtain a better understanding of CNM practices and barriers , we reviewed the
practices of 26 CNMs at 5 employment locations. We also reviewed numerous
published reports , articles , and papers on the practice of midwifery and barriers to
that profession.



We obtained policy statements on midwifery from the American Hospital Association
the American College of Obstetricians and Gynecologists and the American Academy
of Family Physicians. We attempted to obtain a statement from the American Medical
Association. However , we did not make a systematic attempt to determine the
general view of physicians , hospitals , and other professionals or health care entities on
the profession of midwifery. Our study is primarily based on the response of CNMs
themselves.
                                FINDINGS

CN AR WELL QUALIFD AN PRACTCE IN A WIE VARTY
SETTGS
Most CNMs Are Practicig    Th Professin
       Of the 462 CNMs who responded to the survey, 78 percent (361) of them are
       actively engaged in their profession.

Most CNMs Are       Wome Wh Are Well Edated And Have Exene Exerie
Thir Professin

Ninety-nine percent of the CNM respondents were women and the majority held at
least a Masters degree and had practiced their profession for at least six years.

       Approximately 61 percent of the CNMs held a Masters degree in Nursing and
       nearly two and a half percent held a Doctorate in Nursing.

       About 60 percent of the CNMs had practiced midwifery for 6 years or longer
       and twenty-six percent had between 11 and 20 years of practice.

Most CNMs earned at least $30 000, and a few earned over $80 000.

       About 88 percent of the CNMs earned over $30 000 and almost 34 percent
       earned between $40 000 and $49 999.

       Less than one percent (. 9 percent) earned over $80 000.

Few CNMs Work In Rual Areas

The vast majority of the CNMs practiced in urban and suburban areas.

       Six percent and 23 percent respectively worked in urban and suburban
       settings.


       Only eleven percent practiced in rural areas.


CNMs Provi SelVices In A Variety Of Settgs

Most CNM outpatient servces are provided in either the private offices of a physician
or a CNM practice.

       Thirty-one percent of CNMs provided their outpatient servces in the private
       offices of either a physician or a CNM practice.
      About 19 and 18 percent respectively practiced at community health centers
      and teaching hospitals.

      About 11 percent practiced at an HMO.


      Small percentages (under 5 percent) of CNMs provided their outpatient

      servces in freestanding birthing centers , hospital birthing centers or rooms , and
      homes.

      Less than one percent of CNMs provided outpatient servces in rural health
      centers.

Most CNMs provided intrapartum (birth) care in traditional settings , such as hospital
birthing centers , birthing rooms , or traditional hospital delivery rooms.

       Forty- five percent of CNMs provided intrapartum care in hospital birthing
       centers or birthing rooms.

       Twenty-nine percent and 5 percent respectively provided intrapartum care in
       traditional hospital delivery rooms and freestanding birthing centers.

       One and a half percent of the CNMs delivered babies at home because they

       lacked hospital admitting privileges.


       Only . 6 percent said that they delivered babies at home by choice.


       About 17 percent of the CNMs said they did not deliver babies at all.


Appendix B summarizes all settings where CNMs provide outpatient and intrapartum
Servces.

Most CNMs Work For an Oranizatin or       Institun
Most CNMs were employed full- time by hospitals and medical centers. Very few were
self-employed or in partnership with other nurse-midwives.



       Only 8 percent (25) of the 314 respondents who answered this question , worked
       independently as self-employed CNMs or in a partnership with other nurse-
       midwives.

       Nearly half worked for a hospital or medical center.

One CNM did not respond to this question , and 23 CNMs responded by reporting
multiple , part-time employers rather than one full- time employer. These 24 people
were not included in our analysis. The following chart shows full- time employers of
314 of the 338 CNMs included in our analysis.
                        CN M Employers


                             46% Hospita or Medcal Centers




                                                         5 % Colleges and
                                                               Universities

                                                             7% Public Health
                                                                  Agencies

                                                        10% HMOs


                                   Self Employed or
                                  In Parershp with
                                  Other Nure-Midwives




Appendix C provides a brief case study on CNM practices at each of five selected
organizations.

CNMs Sere a Wzd Range of Patits

CNMs accepted both insured and uninsured patients, and a large percentage of them
accepted Medicaid patients.

      Seventy percent of the CNMs responding to our survey questionnaire said they
      accepted Medicaid patients , and nine percent served Medicare patients.

      About 21 percent said they provided uncompensated care.

      Six-two percent said they had self-paying patients.

      Six-one percent said they had third- party payer patients and thirty-two

      percent served HMO patients.

               , "




CN CIT BARRS TO THIR PROFEION
CNMs Consred         Att An       Pereptins Of         Th   Medal Commit      To Be

Most Signifcant  Barr
We asked the CNMs to select the most important barrer from a list of 14 possible
barriers. Three hundred and seventeen of the 338 CNMs responded to this question.
They selected attitudes and perceptions of the medical community as the most
significant barrier. The CNMs cited a lack of physician support as the primary reason
for medical community attitudes and perceptions being a barrier. Appendix D
summarizes the most important barriers identified by 317 of the 338 CNMs responding
to our survey questionnaire ,
                          ranked in order of importance.

Medical community attitudes and perceptions may also have an impact on other
barriers discussed below-- particularly    prescriptive privileges and hospital admitting
privileges.

Our examination of the policies of key medical organizations indicates that there is a
basis for CNMs ' perceptions. These organizations discourage independent CNM
practices as a matter of policy. For example, the American Medical Association
resolved in 1985 to " oppose new legislation extending medical practice to nonphysician
providers. "14 Likewise , the American Academy of Family Physicians (AAP) issued a
policy statement in 1990 which said , in part:

        The AAP believes that ideally obstetrics should be practiced only by fully
       licensed , qualified physicians , however , the AAP recognizes that the practice
       of medicine has many aspects and utilizes many resources in the responsible
       delivery of quality health care.

       Further The AAP is strongly opposed to independent practice of obstetrics
       and gyecology by nonphysicians.

       Finally, " The CNM should not function independently as a health care
       practitioner. The AAP believes that the certified nurse-midwife should only
       function as part of the health care team which includes a physician qualified in
       obstetrics. The certified nurse-midwife should be employed only as a means of
       providing limited care , always under the direction and responsible supervsion
       of a practicing, licensed physician with all reimbursement for servces being
       through the responsible supervsing physician.

CNMs Cie Other Important Barrrs         To       Th Professin
We asked CNMs to choose from the sarne list of 14 possible barriers all those which
they perceived as barriers to their profession. They also provided reasons for choosing
a barrier. The barriers identified most frequently were:
      Litations on prescrptie     prieges: Six- four percent of the CNMs sampled
      said their lack of prescriptive privileges is a barrier. Authority to independently
      prescribe , administer , and dispense drugs , immunizing agents , and devices
      necessary for the practice of midwifery is limited by State and local laws and
      regulations. Some CNMs included vitamins in these privileges.

      Communty atttudes and perceptions: Six percent of the CNMs said
      community attitudes and perceptions is a barrier. CNMs sampled said how the
      general public perceives and comprehends their capabilties and servces can
      limit their practices.


      Medica communty atttudes and perceptions: Fifty-six percent of the CNMs
      said medical community attitudes and perceptions is a barrier. The CNMs
      cited lack of physician support as the primary reason for this barrier , which can
      influence many other barriers. As discussed above , when asked to select the
      single most important barrier to their profession , nearly 24 percent of the
      CNMs cited medical community attitudes and perceptions.

      Restrctions on hospita   admttg prieges: Forty-three percent of the CNMs
      said lack of hospital admitting privileges is a barrier.   Privileges are granted by
      a hospital governing board to allow health professionals to admit patients in
      their own name. CNMs said hospital policy may preclude them from admitting
      patients.

      Medica malpractce insurance:      Malpractice insurancemay become an
      important barrier to CNM practices. The 338 CNMs responding to our survey
      questionnaire ranked malpractice insurance eighth out of 14 barriers. However
      if a recently proposed increase of between 45 and 47 percent in medical
      malpractice insurance premiums is approved , it could become a more
      important barrier for CNMs. The effective date of the increased rates has
      been delayed from August 1 , 1991 pending further negotiations.


      CNMs earning less than $30 000 and between $70- 000 cited malpractice
      insurance as a barrier (59 percent and 50 percent respectively) more frequently
      than CNMs in other salary ranges. Malpractice insurance is more frequently
      perceived as a barrier by CNMs who are in partnership with physicians , self-
      employed , or in partnership with other nurse-midwives than by CNMs in other
      employer categories.

Appendix E summarizes all of the barriers identified by the 338 CNMs responding to
our survey questionnaire. The barriers are ranked based on the number of CNMs
who selected them.
CNMs Wh Are Closely Affted Wih Physins            and Physin-goveme Oranizations
Are Le Likly To Pereie        Barr
Perceived barriers are influenced in part by employer. The table below shows the
eight major employers of CNMs. The table further shows that CNMs who were
closely affilated with physicians or medical organizations were less likely to perceive
barriers to their practices than were those CNMs who worked more independently,
such as the self-employed.



Of the 338 responding CNMs , 314 identified their full- time employers and 298 of
those said they worked for one of eight major employers listed in our questionnaire.
The remaining 16 said they worked for small employers--consolidated in our
questionnaire in a category called " other.


                                  PERCENT OF       CN IDENTG BARR
                                                                Medica
                                                Communty       Communty        Hospital
 Employer          Number       Prescrptie      Atttudes &     Atttudes &     Admttg
                   of            Prieges        Perceptions    Perceptions    Prieges
 Self- Employed                       100
 College or
 University                           100
 Partnership
 with Nurse-
 Midwife
 Partnership
 with Physician

 Hospital or
 Medical
 Center               145
 Public Health
 Agency
 HMO
 Physician
 Practice
 Other
 TOTAL                314
Twenty-one CNMs said there are no barriers to their profession , regardless of
employer , but most of them were clearly associated with the medical community.
Fifteen of the 21 worked for a hospital , medical center , physician , or other medical
organization. Three worked for a college or university. Two worked for someone
other than one of the eight major employers identified in the survey questionnaire.
Only one self-employed CNM said there were no barriers.

Our review of the literature tended to corroborate our findings relating to CNM
practices and barriers. Appendix F summarizes our literature review findings.
        APPENDIX A

       SURVEY QUETIONNAI
SUMY OF CN REPONSES TO EACH QUETION
   --               --

   STATE OF PRIMAY PRACTICE SITE 


   GENDER            334   FEMAE -- MAE              (Total: 338)



   AGE


          24 or YOUNGER

          25 - 29

          30 - 39

   -1     40 - 49

          50 or OLDER

   ARE YOU CURRENTLY IN CLINICAL PRACTICE AS A CNM?

    338   YES

    124 NO: WHY NOT? PLEASE CHECK ONLY ONE RESPONSE.
                           I AM A STUDENT

                           I AM RETIRED

                    -L MAPRACTICE  INSURACE NOT AVAILABLE OR
                       PREMIUMS TOO HIGH

                           CNM INCOME TOO LOW

                    -L LACK OF HOSPITAL ADMITTING PRIVILEGES
                           LACK OF PRESCRIPTIVE PRIVILEGES

                    -L LACK OF HEALTH CARE PERSONNEL FOR
                       RELIEF

                           LICENSE REVOKED/SUSPENDED

                           OTHER (PLEASE EXPLAN):

IF YOU ANSWERED "NO" TO THS QUETION   STOP HERE
                                            , PLEE

MA BACK THS GUIE IN TH ENCWSED POSTAGE PAI ENVWPE.
TH     YOU.



                                    A ­

     --

     WHO EMPLOYS YOU AS A PRACTICING CNM?


      145 HOSPITAL OR MEDICAL CENTER


     -1     COLLEGE OR UNIVERSITY


            HEALTH MANTENANCE ORGANIZATION


            U. S. PUBLIC HEALTH SERVICE

            TITLE V FUNDED PUBLIC HEALTI AGENCY

            OTHER PUBLIC HEALTH AGENCY

            PHYSICIA- OWNED PRACTICE
            PARTNERSHIP WITH PHYSICIA(S)


            PARTNERSHIP WITH NURSE- MIDWIVES


     -- SELF- EMPLOYED

            MILITARY


            INDIA HEALTH SERVICE


            OTHER (SPECIFY):
      337: 23 CNMs showed multiple , part- time employers and were not included
     for a total of 314 respondents

IF YOU ANSWERED "MIITARY" OR "          INIA RETI
                                       SERVICE" PLEE
STOP HERE AN MA BACK THS GUIE IN TH ENaDSED POSTAGE
PAI ENVWPE.         TH
                     YOU.

     CHACTERIZE THE GEOGRAHIC AREA IN WHICH YOU WORK:
     ... URBAN

            SUBURBAN


            RURA

      330



CNM Discussion Guide


                                      A­
     ..
     --

     WHT IS THE POPULATION OF THIS AREA?
             LESS THA     10 000
     -- 10 000 - 49 999
     -A 50 000 - 99 999
             100 000 - 499 999

             500 000 - 999 999

              000 000 - 4 999 999


     -- 5 000 000 OR MORE


     CHECK HIGHEST EARNED NURSING DEGREE.


             DIPLOMA IN NURSING


     -1      ASSOCIATE DEGREE IN NURSING


             BACHELOR' S DEGREE IN NURSING


      207    MASTER' S DEGREE IN NURSING

             DOCTORATE IN NURSING

      337



     WHICH OF THE FOLLOWING CNM EDUCATION PROGRAS DID
     YOU ATTEND?


             PRE- CERTIFICATE PROGRA


             CERTIFICATE PROGRA


             MASTER' S DEGREE PROGRA


             DOCTORA PROGRA
             OTHER


CNM Discussion Guide


                                     A­
       --

10.	   DID THE SCHOOL YOU ATTENDED FOR YOUR CNM EDUCATION
       HA VB A PLACEMENT PROGRA FOR CNMs?

                 YES           302




11.	   DID YOU RECEIVE FINANCIA ASSISTANCE FROM ANY OF THE
       FOLLOWING SOURCES FOR CNM EDUCATION?

            PHYSICIA OR CLINIC SPONSOR


            HOSPITAL SPONSOR


       -2 	 STATE SCHOLARSHIP OR GRAT

            STATE LOAN REPAYMENT

            MILITARY

            NATIONAL HEALTH SERVICE CORPS SCHOLARSHIP

            NATIONAL HEALTH SERVICE CORPS LOAN REPAYMENT

       -1 FEDERA       NURSING EDUCATION LOAN REPAYMNT

            FEDERA NURSING EDUCATION SCHOLARSHIP
            INDIA HEALTH SERVICE


            OTHER FEDERA SCHOLARSHIP OR GRANT

            FEDERAL LOAN REPAYMENT

            OTHER (SPECIFY):




CNM Discussion Guide


                                     A­
       ..--
       -.
12.    WHT IS YOUR APPROXIMATE ANNUAL SALARY FROM YOUR
       CNM PRACTICE? (EXCLUDE BENEFITS AND MAPRACTICE
       INSURACE COSTS).

                   LESS THA $20 000


       -. $20 000 - $29 999

       -1          $30 000 - $39 999


       .. $40 000 - $49 999

       -- $50 000 - $59 999

       -1 $60 000 - $69 999

       -- $70 000 - $79 999

       -- $80 000 OR MORE

            332




13.	   SINCE YOUR CERTIFICATION , HOW        MA TOTAL YEARS HAVE
       YOU PRACTICED AS A CNM?

                   LESS THA 1 YEAR


                   1 - 5 YEARS


            100    6 - 10 YEARS

                   11 - 20 YEARS

                   MORE THA 20 YEARS

            338





CNM Discussion Guide


                                        A­
       --
       ..
       -. %




14.	   WHT PERCENTAGE OF YOUR CLIENTS ARE COVERED BY:
       (numbers represent CNMs who recorded a percentage in each category)
        236        MEDICAI
                   MEDICARE

       205         PRIVATE THIRD- PARTY PAYER

       .1 %	       HEALTH MANTENANCE ORGANIZATION

                   SELF- PAY

       -1%	        UNCOMPENSATED CARE


                   CHAPUS

       -1%	        DON'T KNOW


                   OTHER (SPECIFY):


15.	   WHERE DO YOU PROVIDE THE MAJORITY OF OUTPATIENT
       SERVICES? (PLEASE CHECK ONLY ONE SETTING)

       .l     PRIVATE OFFICE (PHYSICIA OR CNM PRACTICE)

       -1     FREESTANDING BIRTHING CENTER

              HOSPITAL BIRTHING CENTER

              HOME

              HEALTH MANTENANCE ORGANIZATION

              COMMUNITY HEALTH CENTER

       -- MIGRA          HEALTH CENTER


       -- RURA        HEALTH CENTER


              TEACHING HOSPITAL


              OTHER HOSPITAL

              OTHER (SPECIFY):
        333
CNM Discussion Guide


                                       A­
       --

16.	   WHERE DO YOU PROVIDE THE MAORITY OF INTRAARTUM
       CARE?
       (PLEASE CHOOSE ONLY ONE SETTING)


       -5    DO NOT DELIVER


       -1    HOSPITAL BIRTHING CENTER


       -2    HOSPITAL TRAITIONAL DELIVERY ROOM


       -L HOME - BY CHOICE

             HOME - DO NOT HAVE HOSPITAL ADMITTING PRIVILEGES

             FREESTANDING BIRTHING CENTER

             OTHER (SPECIFY):
       329




CNM Discussion Guide


                                A­
       -- -.
          --

PLEASE CHECK AN ITEMS BELOW WHICH YOU PERCEIVE TO BE A
BARRIER TO YOUR CNM PRACTICE. THEN CHECK THE MAN REASON
WHY THIS IS A BARRIER TO YOUR PRACTICE. CHOOSE ONLY ONE
REASON.



17.	   -H REIMBURSEMENT BY MEDICAID
             WHY?
               PAYMENT TOO LOW

                 ALL SERVICES NOT COVERED (MOST IMPORTANT
                 SERVICE NOT COVERED):



           -- CAN'T OBTAIN IDENTIFICATION NUMBER
                 DELAYED PAYMENTS


                 OTHER (EXPLAIN):




18.        REIMBURSEMENT BY MEDICARE

            WHY?
               PAYMENT TOO LOW

           -1    ALL SERVICES NOT COVERED (MOST IMPORTANT
                 SERVICE NOT COVERED):



                 CAN'T OBTAIN IDENTIFICATION NUMBER

                 DELAYED PAYMENTS


                 OTHER (EXPLAIN):



CNM Discussion Guide


                                A­
      .. --
         ..
         -.
19.         PRIVATE THIRD- PARTY REIMBURSEMENT

             WHY?
                PAYMENT TOO LOW

                  ALL SERVICES NOT COVERED (MOST IMPORTANT
                  SERVICE NOT COVERED):



                  DELAYED PAYMENTS

                  FEW PRIVATE INSURERS REIMBURSE CNMs FOR
                  SERVICES

                  OTHER (EXPLAIN):




20.         PRESCRIPTIVE PRIVILEGES

             WHY?
                CAN'T GET DEA NUMBER

                  LIMITED BY STATE OR LOCAL LAWS/REGULATIONS

                  OTHER (EXPLAIN):




21.   142   HOSPITAL ADMITTING PRIVILEGES

             WHY?
                LIMITED BY STATE OR LOCAL LA WS/REGULATIONS

            120   LIMITED BY HOSPITAL POLICY

                  OTHER (EXPLAIN):




CNM Discussion Guide


                                A­
           --

22.        STATE LAWS AND REGULATIONS

             WHY?
               SCOPE OF SERVICES LIMITED (MOST IMPORTANT
               SERVICE LIMITED):



           -1    OPTIONS FOR PRACTICE SETTING LIMITED

           -2    OTHER (EXPLAIN):




23.   -1   LOCAL LAWS AND REGULATIONS

             WHY?
               SCOPE OF SERVICES LIMITED (MOST IMPORTANT
               SERVICE LIMITED):



                 OPTIONS FOR PRACTICE SETTING LIMITED

                 OTHER (EXPLAIN):




24.        AVAILABILITY OF PHYSICIA BACKUP

             WHY?
                 NO PHYSICIA(S) IN GEOGRAHIC AREA

           J.    PHYSICIA(S) UNWILLING TO SERVE AS BACKUP.
                 WHY?

           -1    OTHER (EXPLAIN):




CNM Discussion Guide
           -.
           --
           --




25.   -2   COST OF PHYSICIA BACKUP

                WHY?
                  COST IS TOO HIGH
                  (How much do you pay for physician backup?
                   i.e. $400 delivery or $4000 per month)

                   PAYMENT SCHEDULE IS DIFFICULT
                    (i. e. per month or delivery)

                    OTHER (EXPLAN):




26.   -2   REQUIREMENTS OF PHYSICIA BACKUP

                WHY?
           -2     PHYSICIA MUST BE CONSULTED FOR TOO MAY
                  COMMON OR STANDARD PROCEDURES

                    PHYSICIA MUST BE IN HOSPITAL DURING DELIVERY

                    REQUIREMENTS ARE UNCLEAR

                    OTHER (EXPLAN):




27.   J1 MAPRACTICE INSURACE
                WHY?
           -1     IS NOT AVAILALE


                    COVERAGE IS LIMITED


                    COST IS TOO HIGH


                    OTHER (EXPLAN):




CNM Discussion Guide


                                         A­
            ..
            --

28.   -2    CONTINUING EDUCATION

             WHY?
                 TOO MAY UNITS ARE REQUIRED

            -1 CAN'T GET TIME OFF TO OBTAIN CONTINUING
                 EDUCATION UNITS

                 NONE OFFERED IN MY AREA

                 OTHER (EXPLAIN):




29.         MEDICAL COMMUNITY ATTITUDES AND PERCEPTIONS

             WHY?
               LACK OF PHYSICIA SUPPORT

                 LACK OF NURSE SUPPORT

            -1   LACK OF OTHER HEALTH CARE PERSONNEL
                 SUPPORT

            -1   OTHER (EXPLAIN):




30.   202   COMMNITY ATTITUDES AND PERCEPTIONS
             WHY?
               NEGATIVE MEDIA COVERAGE

            -1   POPULATION UNAWARE OF CNM CAP ABILITIES AND
                 SERVICES

            102	 POPULATION DOES NOT DISTINGUISH BETWEEN LAY
                 MIDWIVES AND CNMs

                 OTHER (EXPLAIN):



CNM Discussion Guide


                               A­
31.   PLEASE LIST AND EXPLAN ANY OTHER BARRIERS TO YOUR
      PRACTICE AS A CNM.




CNM Discussion Guide


                             A­
       --

32.	   BELOW ARE LISTED ALL OF THE ABOVE MENTIONED POSSIBLE
       BARRIERS. PLEASE CHECK THE MOST IMPORTANT BARRIER TO
       YOUR CNM PRACTICE. CHOOSE ONLY ONE.

             REIMBURSEMENT BY MEDICAID


             REIMBURSEMENT BY MEDICARE


       -1    PRIVATE THIRD- PARTY REIMBURSEMENT


       .2 	  PRESCRIPTIVE PRIVILEGES

             HOSPITAL ADMITTING PRIVILEGES


       -1    STATE LAWS AND REGULATIONS


       -L LOCAL LAWS AND REGULATIONS

             AVAILABILITY OF PHYSICIA BACKUP

             COST OF PHYSICIA BACKUP


             REQUIREMENTS OF PHYSICIA BACKUP

       -1 MAPRACTICE INSURACE

             CONTINUING EDUCATION


       -1    MEDICAL COMMUNITY ATTITUDES AN PERCEPTIONS

             COMMUNITY ATTITUDES AND PERCEPTIONS

       -1 	  OTHER

             NO BARRIERS
       317




CNM Discussion Guide


                                A­
33.	   WHT ARE SOME SOLUTIONS TO THE BARRIERS YOU
       EXPERIENCE AS A CNM?




34.	   PLEASE SUPPLY ANY ADDITIONAL INFORMATION THAT YOU
       THINK WOULD BE HELPFUL TO UNDERSTANDING THE PRACTICE
       OF NURSE- MIDWIFERY.




TH   YOU FOR COMPLETIG THS GUIE. NOW MA IT BACK IN
TH ENCWSED POSTAGE PAI ENVWPE. WE APPRECIATE YOUR
TI AN EFFORT IN HELPING US CONDucr THS STUY.


CNM Discussion Guide


                              A­
                     APPENDIX
                     CN PROVIE       SERVICE
                       AT A   VARTY OF SIT

Out atient Servce Site                 # of CNMs       Percent

Private Office of a Physician

 or a CNM Practice                            102      31.0
Community Health Center                                19.
Teaching Hospital                                      17.
HMO                                                    11.2
Other Hospital
Freestanding Birthing Center
Hospital Birthing Center/Room                           1.5
Home
Rural Health Center

Other

                                              330 *     100



Intra artum Care Site                  # of CNMs       Percent

Hospital Birthing Center/Rooms                148       45.
Hospital Traditional Delivery Room                      28.
Do Not Deliver                                          17.3
Freestanding Birthing Center
Home- Do not have hospital
 admitting privileges                                    1.5
Home- By choice
Other

                                              329 **     100




* Of 338 CNMs , 330 answered this question

** Of 338 CNMs , 329 answered this question
                              APPENDIX C

                                 SAMLE SETTGS

We reviewed practices of 26 CNMs at five employment locations to gain an
understanding of variation in CNM practices. Our observations are summarized
below.


Medica School Hospita: Baylor College of Medicine ,      Department of Obstetrics and
Gynecology, Houston , Texas

Twelve CNMs practice at the medical school hospital , at an associated public city
hospital and at county-run clinics. The CNMs see approximately 8000 patients
annually in the practice. They provide prenatal , perinatal , well- infant and some
gyecological care to mostly low- income , Medicaid-eligible , hispanic patients. Eighty-
five percent of the deliveries performed by the CNMs are uncompensated.

Texas law does not give CNMs explicit prescriptive privileges. It authorizes physicians
to " delegate " those privileges. CNMs may admit patients to a hospital with a
physician s approval within 24 hours. Barriers for these CNMs are minimized because
their back-up physicians are also Baylor employees , and are readily available to
provide assistance. Malpractice insurance is provided through the college , which is
self-insured.


Parership with   CN: Catawba Nurse Midwives, Inc. , Rock Hil, South Carolina
This practice is a partnership of three CNMs and a fourth CNM employed by the
partners. The CNMs provide prenatal servces to over 50 patients, a day at a county
health department clinic , which contracts for the CNMs ' servces. Ninety percent of
the patients receive Medicaid. Some private insurance companies will reimburse
CNMs for their servces but some will not.

Some procedures , such as lab servces and ultra-sound tests , must be done off-site at a
doctor s office or at a laboratory which accepts Medicaid patients. Although CNMs
cannot prescribe medicines , including vitamins , they may dispense certain medicines
which clinics keep on hand.

About 45 babies are delivered each month at a nearby hospital, the Piedmont Medical
Center. The CNMs must admit patients under the names of three doctors who Serve
as their back-up. Many doctors in the community accept CNMs and their practice;
however , some pediatricians have refused to see babies delivered by CNMs. The
CNMs pay for their own malpractice insurance.


                                          C - 1

Physician-Owed Priate Practice: Comprehensive Obstetrics , Gynecology, &
Midwifery, Hinsdale , Ilinois

Four CNMs work for this physician-owned corporation. The CNMs provide a full
range of well-woman care in two private medical offices. Most of the patients are
healthy, white , middle and upper income women who have made a conscious choice to
be cared for by a CNM. Over 80 percent     of the patients have private insurance.
Biling is done under a physician s name.

The CNMs and a physician deliver around 23 babies a month at two nearby private
hospitals. State laws recognize and license CNMs as nurses only. CNMs must admit
patients under a physician s name and a physician must be in the hospital during
deliveries. CNMs may only prescribe certain drugs through delegated physicians
orders , and all prescriptions must be cosigned by a physician.

The physician-owned corporation pays for the CNMs ' malpractice insurance through a
company that provides malpractice insurance for CNMs nationwide. The
corporation s malpractice insurance carrier attempted to impose a surcharge on the
policy for working with CNMs. This surcharge was challenged in court and prohibited.


Freestadig Birhig Center: Holy Family Servces , Weslaco , Texas

Three CNMs practice at a freestanding birth center , which is run by the Catholic
Diocese of Brownsville. The CNMs provide prenatal outpatient and educational
servces to over 400 patients a month. A consulting doctor has an office on site , which
allows certain prescription drugs to be kept on site. Five other consulting physicians
have left the practice due to malpractice insurance   surcharges.


CNMs deliver over 20 babies in the center s four birthing rooms each month. CNMs
make two home visits for each mother and baby. Ninety-five percent of the center
patients are hispanic , and many delay seeking prenatal care. Half of the patients are
covered under Medicaid. Some patients and their familes work off their debt to the
clinic by doing janitorial work or other work for the center. A health insurance
company for the largest employer in the area will not reimburse CNM servces to
employees of that company.


Health Maitenance Organtion: Anchor Health Maintenance Organization
Chicago , Ilinois

The Health Maintenance Organization (HMO) employs four CNMs. They provide
outpatient obstetrical and gyecological servces at the HMO. CNMs and physicians
take a team approach to patient care. Approximately 95 percent of the CNMs



                                         C - 2

patients are enrollees in the HMO. The remainder are self-paying or uncompensated
care patients.

CNMs perform over 25 percent of the 40- 50 deliveries occurring monthly at an
associated hospital. The six HMO staff physicians must admit patients to the hospital
and be in immediate proximity at the time of delivery. CNMs may not write
prescriptions but may write refil orders which one of the doctors must sign. The
HMO carries " umbrella " malpractice insurance covering all of its employees-- including
CNMs.




                                          C - 3

                       APPENDIX D

        BARRS           ENTiFIED AS TH MOST        SIGNICAN
RAK            BARRIER                    # OF CNMs

        Medical Community Attitudes
        and Perceptions                                   23.

        Prescriptive Privileges                           16.

        Hospital Admitting Privileges                      8.8

        Availabilty of Physician Backup                   8.2

        Community Attitudes & Perceptions

        Malpractice Insurance



        Reimbursement by Medicaid

        Requirements of Physician Backup                  4.4

        State Laws and Regulations

        Private Third- Party Reimbursement

        Local Laws and Regulations

        Continuing Education

        Reimbursement by Medicare

        Cost of Physician Backup

                                                          89.

  CNMs who said " no barriers
  CNMs who chose " other

                                                317*      100
  * Of 338 responding CNMs , 317 answered this question




                                   D-1
                            APPENDIX E

                        FRQUENCY OF SEIECTON OF
                        BARRS              ENTIFIED BY

BARRIER AND MAJOR CONCERN                            # OF CNMs

Prescriptive Privileges: Limited by
State & Local Laws & Regulations                         218

Community Attitudes & Perceptions: Population
Unaware of CNM Capabilties & Servces                     202

Medical Comm. Attitudes & Perceptions:
Lack of Physician Support                                189

Hospital Admitting Privileges: Limited
by Hospital Policy                                       142

Reimbursement by Medicaid: Payment Too Low               141

Private Third- Party Payer Reimbursement:
Few Private Insurers Reimburse CNMs                      135

Availability of Physician Backup: Physi­
cians Unwillng to Serve as Backup                        119

Malpractice Insurance: Cost Too High                     111

Requirements of Physician Backup: Physi­
cian Must Be in Hospital During Delivery

Continuing Education Units: Can t Get
Time Off To Obtain

State Laws & Regulations: Scope of
Servces Limited



Reimbursement by Medicare: Payment
Too Low

Cost of Physician Backup: Cost Too High

Local Laws & Regulations: Options for
Practice Setting Limited


                                           E-
                             APPENDIX
  LITRATU REVIW              ON CERTiFIED NUSE-          MIWI'         PROFEION
Our literature review showed a significant body of information on barriers to certified
nurse-midwives ' (CNMs ) profession. The literature also provided information on
numerous other aspects of CNMs ' profession , including impact of CNMs ' practices on
access to care and infant mortality, quality and cost-effectiveness of CNM services , and
a need for further publicity and research regarding the work of CNMs.

CN Ca Help Aleviate Problems Of Accss To Cae And Inant Mortty
       CNMs can provide care to underserved populations and improve access for
       those populations.

       CNMs are historically credited with improving geographic distribution of care.
       According to a 1986 report by the Office of Technology Assessment , CNMs can
       provide safe care that would otherwse be unavailable in inner cities and
       remote areas.

       A 1981 "Journal of Nurse-Midwifery" article on infant mortality reported that
       high- risk women in other countries have a better opportunity to obtain in- depth
       medical attention than such women have in America. The system in other
       countries relies heavily on nurse-midwives and America s system relies on
       obstetrical care.



       The maternity system in this country is fundamentally flawed and overly
       complex according to the Institute of Medicine. Their 1988 report said that we
       need a new system dedicated to drawing all women into prenatal care. Further
       this new system should use physicians and CNMS.

       Midwives have a positive impact on preventing low birthweight and reducing
       infant mortality.



       In 1984 a " Public Health Report" article on out-of- hospital births concluded
       that , regardless of a mother s age group, babies delivered by midwives were less
       likely to be low birthweight. 18 Likewise , researchers for the American College
       of Nurse- Midwives Foundation reported in 1986 that when nurse-midwives were
       used in previously underserved areas , maternal and infant mortality and
       morbidity were reduced. This occurred irrespective of whether the delivery
       occurred at home or in a hospital setting.

       A 1971 study reported in the American Journal of Obstetrics and Gynecology
       showed that when a nurse-midwife program was installed in a hospital
       prematurity and neonatal death rates decreased and pregnant women kept


                                          F­
                                       , "                         , "




     more prenatal care appointments. When the program was terminated , the
     prematurity and neonatal death rates rose.

     In countries with a lower rate of infant mortality than the United States , well
     trained midwives provide the majority of family planning and obstetrical care.
     An article in "Journal of Nurse- Midwifery" showed in 1981 that if we hope to
     improve pregnancy outcomes and decrease infant mortality in this country, we
     must increase the number of nurse-midwives and expand their servces.

     In 1988 ,
             a representative of the World Health Organization testified before the
     u. S. Commission to Prevent Infant Mortality, stating that Every country in
     Europe with perinatal mortality and infant mortality rates lower than the
     United States uses midwives as the principal and only birth attendant for at
     least 70% of all births. " Further The United States should spend far less
     money on interventionist obstetric care and put more resources into building up
     a large strong midwifery position. "22

CN Ca Provide Qualty And Cost-Effecte Health Cae
     CNMs can provide quality care within their area of competence.

     The quality of CNM care is equivalent to physicians ' care within their area of
     competence , according to a 1986 study by the Office of Technology Assessment.
     Further , they are better than physicians at providing servces which depend on
     communications with patients and preventative action.

     The "American Journal of Obstetrics and Gynecology" reported in 1976 , that
     outcomes for CNMs pertaining to prenatal period , labor , and delivery were not
     significantly different from those for physicians with two exceptions. CNMs
     patients were far more likely to keep prenatal care appointments and
     physicians reported a higher rate of forceps      deliveries. The study concluded
     that , in a hospital setting, the care of low- risk maternity patients provided by
     CNMs was as effective as that of physicians.

     A 1986 Office of Technology Assessment report stated that CNMs can manage
     normal pregnancies safely and can manage them as well as , if not better than
     physicians. Finally, given that quality is equivalent , it would appear to be cost-
     effective to use nonphysicians rather than physicians.

     A 1988 Canadian study of birth outcomes showed that nurse-midwives provide
     prenatal care to low- risk women that is comparable , if not superior , to the care
     provided by family physicians. Also , nurse-midwives provide more adequate
     and comprehensive care to pregnant women than family physicians do.
     Another study, conducted by an HMO in 1989 , showed that CNMs do not
     adversely affect maternal and perinatal mortality rates , and were an unqualified
     success as part of the obstetrical team.


                                             F­
                                              , "




      Nurse-midwives can provide cost effective care in certain contexts.

       Nurse- Midwifery in America " a report published by the American College of
      Nurse- Midwives in 1986, stated that normal pregnancies managed by nurse-
      midwives in freestanding birth Centers cost 40 percent of the traditional
      obstetrical care costs. Furthermore , a CNM practice operating at full capacity
      can provide less costly maternal and infant care.

      The American College of Nurse- Midwives Foundation s                              1986 report described
      the effects of a nurse-midwife program in four rural Georgia counties. 
                         Mter
      the program was implemented , perinatal care expenses and infant mortality
      rates decreased.

      Payroll costs were reduced by 13 percent in the obstetrics and gyecology
      department of an HMO through the use of CNMs. However , in an office
      setting CNMs did not generate a significant savings.

Atttudes And Perceptions Of Medica Communty And General Public Are Barers
To CN' Profession

      CNMs may not be readily accepted within medical communities.

     CNMs have encountered difficulty in gaining acceptance by practicing
     physicians , medical societies , and hospital departments. For example , according
     to a 1986 Office of Technology Assessment study on nonphysicians , OB/GYNs
     are threatened by CNM practices.                              Such physicians are no longer sole providers
     of prenatal and obstetrical care and must compete with CNMs.

     Likewise , the Boston Globe published an April 1991 article by the
     Massachusetts Medical Society President who discouraged practices by
     nonphysicians. He said We should not attempt to solve the access problems
     for medical care by expanding the role of the limited- licensed practitioners. "32

     In 1986 ,the American College of Nurse- Midwives (ACNM) reported that
     physicians directly influence barriers to CNMs practices. Those who oppose
     the practice of nurse-midwifery are tightening the financial noose via denial of
     hospital privileges , restrictive state statutes and regulations , and harassment of
     supportive physicians.

     CNMs may not be well understood by the general public.

     CNMs ' practices and servces are not well understood by the general public and
     health-care decision makers. The American College of Nurse- Midwives
     (ACNM) reported in 1986 that a lack of information about nurse-midwives
     the most important barrier to making CNM servces available in the country.



                                                                 F­
      The ACNM also reported that the general public had a poor understanding of
      nurse-midwives.

      Further , a 1989 study on one HMO showed that over 50 percent of patients
      surveyed lacked knowledge of CNMs. However, they expressed receptiveness
      to CNMs after learning their role and qualifications.

      In order to help each woman make an informed decision regarding birth care
      and technology, the roles and servces of all birth care providers , including
      CNMs , should be publicized throughout a community, according to a World
      Health Organization (WHO) article published in Lancet in 1985. The WHO
      encourages governments to act as coordinator in assessing birth technology and
      disseminating information about that technology at alllevels.

Further Research Is Needed On The Roles And Practces Of

      The cost and effect of CNM care should be documented.

      According to numerous authoritative organizations , there is a need for more
      research and more data about all facets of CNM roles and practices. For
      example , in 1982 the General Accounting Office reported a general lack of data
      to evaluate use , or Federal effort to encourage use , of nurse-midwives.

      The American College of Nurse- Midwives Foundation recommended in their
      1986 report that studies be conducted to record the contributions of nurse-
      midwives to care for the poor , to measure the effect of nurse-midwifery care on
      health-care costs , and to document the effect of nurse-midwifery care on the
      health of mothers , babies and the familes served. Further , the Foundation
      recommended increased documentation of client satisfaction with and the safety
      and quality of care received from nurse-midwives.



      Further , in 1988   the National   Commission to Prevent Infant Mortality
      recommended that demonstration projects be undertaken to test innovative
      ways to increase participation of physicians and CNMs in Medicaid and
      underserved communities.



      Physician attitudes should be studied and analyzed.

      The American College of Nurse- Midwives stated in 1986 that we cannot make
      assumptions regarding the attitudes and behaviors of physicians practicing
      obstetrics. 4o A physician stated in a 1986 article in the Journal of Nurse-
      Midwifery that before we can hope to bring physicians and midwives into closer
      relationships we need some good research about physician attitudes so we know
      exactly what the problem is.




                                             F­
                                   ENDNOTES

       C. Everett Koop, MD. Transcript #5 of "A Time for Change " dated April 29
       1991. Televised on PBS stations by the MacNeil/Lhrer Productions.

       Office of Technology Assessment. " Nurse- Practitioners , Physician Assistants
       Certified Nurse-Midwives: A Policy Analysis " Health Technology Case Study
         , December 1986.

       American College of Nurse- Midwives. " Contributions of CNMs To Improved
       Health Outcome " PR89- 12/05 , 1989.

       Kenneth E. Bell , MD , and Jack I. Mils , PhD. " CNM Effectiveness in the
       HMO Obstetric Team " Obstetrics and Gynecology, 74 , 112- 116 , 1989.

       American College of Nurse- Midwives. " 4260 Nurse- Midwives Certified by the
       ACNM " PR90- 1/26 , 1990.

       American College of Nurse- Midwives , PR90- 1/26 , 1990 , and ACNM memo
       dated August 12 ,   1991.

       American College of Nurse-Midwives , PR90- 1/26 , 1990.

       American College of Nurse- Midwives. "Nearly 100 000 1987 Births in U.
       Hospitals Attended by Certified Nurse- Midwives - Up 500% From 1975
       PR90- 2/15 , 1990.

       Advisory Panel on National Health   Policy, American College of Nurse-
       Midwives. " National Health Policy Background Papers " February 1990.

10.	   Koop.

11.	   Dana Hughes and Sara Rosenbaum. "An Overvew of Maternal and Infant
       Health Servces in Rural America " The Journal of Rural Health , Volume 5
       Number 4 , October 1989.

12.	   Physician Payment Review Commission. Annual Report        to Congress ,   1991.

13.	   Hughes and Rosenbaum.

14.	   Office of Technology Assessment.

15.	   Office of Technology Assessment.
16.   Doris Haire. " Improving the Outcome of Pregnancy Through Increased
      Utilzation of Midwives " Journal of Nurse- Midwifery, 26(1), 1981.


17.   American College of Nurse- Midwives. " Recent Reports Recommend Increased
      Use of Certified Nurse- Midwives " PR89- 12/05 , 1989.

18.   Eugene R. DeClercq, PhD. " Out-of-Hospital Births , U. , 1978: Birth Weight
      and Apgar Scores as Measures of Outcome " Public Health Report , 99/1 , 1984.

19.   Judith Rooks , CNM, MPH , MS , Editor and J. Eugene Haas , PhD , Editor.
       Nurse- Midwifery in America " A Report of the American College of Nurse-
      Midwives Foundation ,   1986.


20.   C. Slome , MD , DPH; H. Wetherbee , MPH; M. Daley, MSPH , PhD; K.
      Christensen , RN , MPH; M. Meglen , CNM , MS; and H. Thiede , MD.
      Effectiveness of CNMs: A Prospective Evaluation Study, " American Journal of
      Obstetrics and Gynecology, 124 ,   1976.


21.   Haire.

22.   Nancy E. DeVore , CNM , MS , and Bertrand M. Bell , MD. " Midwifery and the
      Shortage of Obstetrical Care Providers. " Presented on October 24 , 1989 at the
      meeting of the American Public Health Association ,   p. 8.



23.   Office of Technology Assessment.

24.   Slome.

25.   Office of Technology Assessment.

26.   Lynn Buhler , BSN , Msc; Ned Glick , PhD; Samuel B. Sheps , MD , MSc , FRCPC.
       Prenatal Care: A Comparative Evaluation of Nurse- Midwives and Family
      Physicians " Canadian Medical Association Journal , 139/5 , 1988.

27.   Bell and Mils.

28.   Rooks and Haas.

29.   Rooks and Haas.

30.   Bell and Mils.

31.   Office of Technology Assessment.

32.   Barry M. Manuel. " Who Should Prescribe Drugs? " The Boston Globe , April
        , 1991.
33.   Rooks and Haas ,   p. 113.


34.   Rooks and Haas ,   p. 2.



35.   Bell and Mils.

36.   World Health Organization (WHO). "Appropriate Technology for Birth
      Lancet , VoL 2 , 1985 , p. 436.

37.   General Accounting Office (GAO). " The Availabilty of Nurse- Midwife
      Servces Under Various Federal Health Care Programs " GAO- HRD- 82­
      1982.

38.   Rooks and Haas , p. 42.

39.   American College of Nurse- Midwives , Recent Reports Recommend Increased
      use of Certified Nurse- Midwives , PR89- 12/05 , 1989.

40.   Rooks and Haas , p. 65.

41.   Irvn Cushner , MD. ' The Health Care Team-A Physician s Perspective
      Journal of Nurse- Midwifery, 31 , 1986.
